that MMS had provided sufficient documentation to consider the recommendation
implemented.

Scope and Methodology

        The scope of our review was limited to determining whether MMS took adequate
action to address the recommendations. We reviewed the supporting documentation that
MMS submitted to close the recommendations. We also interviewed and requested
information from MMS personnel as appropriate.

        We did not perform any site visits or conduct any detailed audit fieldwork to
determine whether the underlying deficiencies identified have been corrected. As a result,
this review was not conducted in accordance with the Government Auditing Standards
issued by the Comptroller General of the United States.

                                   Results of Review

        We determined that both recommendations in the subject audit report have been
fully implemented by MMS.

Recommendation 1: Develop, using the draft strategy paper, and implement a plan to
eliminate the Stripper Oil Well Property Royalty Rate Reduction Program notification
processing and data entry backlog and to approve future notifications for the Program in a
timely manner.

        In response to our 1999 report, MMS stated that, based on the strategy paper, it had
hired three technicians for the Stripper Oil Well Project Team and made system
enhancements to improve the efficiency of notification processing. We obtained
chronological documentation of the stripper project team staffing and changes made in the
systems. The actions taken by MMS are sufficient for us to consider the recommendation
implemented.

Recommendation 2: Develop and implement a plan to review program exceptions
generated by the automated matching process and collect underpaid royalties from
operators.

        MMS provided a history of the Process for Generating and Reviewing Stripper
Royalty Rate Reduction Exceptions. MMS developed an Access database in 2000-2001
which generated royalty rate reduction exceptions for October 1992 through December
1997. This database was sent to the Office of Financial Management as support for
considering the recommendation implemented. Although the Office of Financial
Management accepted the documentation, the support was insufficient because MMS was
not able to verify that a review of this database was completed. MMS developed and
implemented an alternative plan in 2003 that did satisfy the recommendation. The actions
taken by MMS are sufficient for us to consider the recommendation implemented.


                                             2
Conclusion

        We informed MMS officials at a September 27, 2004 exit conference that we were
reporting both recommendations in the subject audit report as implemented.

      If you have any questions regarding this report, please contact Keith Clark, Deputy
Regional Audit Manager, or me at (303) 236-9243.

cc:   Audit Liaison Officer, Minerals Management Service
      Audit Liaison Officer, Assistant Secretary for Land and Minerals Management




                                           3
